OFFICE OF INSPECTOR GENERAL




AUDIT OF
USAID/ZIMBABWE’S
IMPLEMENTATION OF THE
PRESIDENT’S EMERGENCY
PLAN FOR AIDS RELIEF
AUDIT REPORT NO. 7-613-08-001-P
OCTOBER 24, 2007




DAKAR, SENEGAL

     Office of Inspector General




     October 24, 2007

     MEMORANDUM

     TO:                  USAID/Zimbabwe Director, Karen Freeman

     FROM:                Regional Inspector General/Dakar, Nancy Toolan /s/

     SUBJECT:             Audit of USAID/Zimbabwe’s Implementation of the President’s
                          Emergency Plan for AIDS Relief (Report No. 7-613-08-001-P)

     This memorandum is our final report on the subject audit. In finalizing this report, we
     considered management’s comments on our draft report and included them in Appendix
     II.

     This report contains two recommendations with which you concurred in your response to
     the draft report. Final action has been taken on all the recommendations and no further
     action is required of the Mission.

     I appreciate the cooperation and courtesies extended to the members of our audit team
     during this audit.




U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 4 


Did USAID/Zimbabwe’s Emergency Plan prevention, care, and treatment 

activities achieve expected planned results in its grants, cooperative 

agreements, and contracts? ............................................................................................. 4 


Audit Findings ................................................................................................................. 5 


        Performance Management
        Needs to be Strengthened ....................................................................................... 7 


        The Mission and Its Partners Need to
        Verify Data .............................................................................................................. 9 


Evaluation of Management Comments ....................................................................... 13 


Appendix I – Scope and Methodology ........................................................................ 15 


Appendix II – Management Comments ....................................................................... 17 


Appendix III – Planned and Actual Results for Fiscal Year 2006.............................. 19 


Appendix IV – Funding Level ....................................................................................... 21 

SUMMARY OF RESULTS

The Regional Inspector General/Dakar conducted this audit as part of a worldwide audit
led by the Office of Inspector General’s Performance Audit Division of USAID’s
implementation of the President’s Emergency Plan for AIDS Relief (the Emergency Plan).
The objective of this audit was to determine if USAID/Zimbabwe’s Emergency Plan
prevention, care and treatment activities achieved expected planned results in its grants,
cooperative agreements and contracts (see page 4).

We found that USAID/Zimbabwe's Emergency Plan activities achieved almost 60 percent
of its planned results for FY 2006. This level of overall achievement falls below the 90
percent threshold necessary to conclude that the program’s planned outputs were
achieved. The results that were achieved, however, are particularly noteworthy and have
had an impact given the challenging operating environment in Zimbabwe. As a result, we
are not making any recommendation regarding the outputs that the Mission did not
achieve. Some internal control weaknesses at both the mission level and the partner level
were noted, however, that, if addressed, will help the Mission improve its management of
its partners (see pages 5-7).

According to USAID’s Automated Directives System (ADS), missions are responsible for
establishing performance management systems to measure the progress of activities from
the lowest level—the output level—up to the higher-level results. USAID/Zimbabwe
conducted two performance reviews during FY 2006, but the Mission did not review lower-
level results. Our review of FY 2006 planned outputs revealed that the Mission did not
perform some basic monitoring activities for three of its four partners. Mission
management said that these monitoring problems occurred because the Mission was
short-staffed. If the Mission were to drill down to the output level during portfolio reviews,
internal control weaknesses such as those mentioned above could be discovered and
corrected with a minimum of extra effort. This would allow the Mission to ensure that
outputs identified in its grants, cooperative agreements and contracts are effectively
monitored, providing the basis for sound performance management of higher-level results.
Consequently, we recommend that the Mission revise the Mission Order on semi-annual
portfolio reviews to include reviewing output-level data. Doing so would ensure that
outputs in grants, cooperative agreements and contracts continue to be monitored in
addition to higher-level results (see pages 7-9).

According to Agency guidance, measuring performance effectively means that missions
must ensure that quality data are collected and available to inform management decisions.
We performed spot-checks of the data reported to USAID by their four HIV/AIDS partners
to verify the accuracy of information reported to USAID and to confirm that each partner
had an effective data collection system. For three of four partners, there were problems
with both the data collection system and the accuracy of data reported to USAID. Mission
officials explained that in the current operating environment, partners find it difficult to hire,
train and retain monitoring and evaluation specialists. This has proven to be an
impediment to ensuring data quality and is further exacerbated by the increasingly severe
humanitarian crisis in Zimbabwe, which often requires staff to focus on more urgent project
needs. USAID/Zimbabwe staff was proactively involved with the partners but because of
constraints on their time and resources, did not verify data at the partners’ activity sites.
Sound management decisions, however, require accurate, current, and reliable


                                                                                              1
information, and the benefits of this results-oriented approach substantially depend on the
quality of the performance information available. To address this weakness, we are
making one recommendation for USAID/Zimbabwe to develop procedures that define the
roles and responsibilities of the Mission and partner staff in assuring the quality of
Emergency Plan data. These procedures should address verifying reported data with
source documentation, documenting key assumptions and maintaining documentation to
support reported results (see pages 9-12).

USAID/Zimbabwe agreed with the findings and the two recommendations in the draft audit
report. Final action has been taken on the recommendations and no further action is
required of the Mission (see page 13).




                                                                                       2
BACKGROUND

Recognizing the global HIV/AIDS pandemic as one of the greatest challenges of our
time, the Congress enacted legislation to fight HIV/AIDS internationally through the
President's Emergency Plan for AlDS Relief (the Emergency Plan)--the largest
international health initiative in history by one nation to address a single disease. The
$15 billion, 5-year program provides $9 billion in new funding to speed up prevention,
care, and treatment services in 15 focus countries. The Emergency Plan also devoted
$5 billion over 5 years to bilateral programs in more than 100 non-focus countries and
increased the U.S. pledge to the Global Fund 1by $1 billion over 5 years. Of the non-
focus countries that received increased funding for HIV/AIDS for fiscal year (FY) 2005,
Zimbabwe received the second largest amount of the Emergency Plan funds.

To further the President’s goals for the Emergency Plan, the U.S. Government (USG)
provided $20.5 million in FY 2005 to support the fight against HIV/AIDS. These funds
were managed by USAID, Health and Human Services’ Centers for Disease Control and
Prevention, the Department of Defense, and the Department of State’s Public Affairs
Section. USAID/Zimbabwe received more than half of the total USG contribution ($11.5
million) and implemented its programs through four partners: John Snow Inc., Catholic
Relief Services, Elizabeth Glazier Pediatric AIDS Foundation, and the Partnership
Project. John Snow Inc. provided prevention, care and treatment activities; Catholic
Relief Services was involved in care for orphans and vulnerable children (OVC);
Elizabeth Glazier Pediatric AIDS Foundation provided Prevention of Mother-to-Child
Transmission (PMTCT) activities; and the Partnership Project activities included other
prevention and palliative care.

USAID/Zimbabwe’s 5-year strategic plan presents information on the social and
economic situation in Zimbabwe and the fight against AIDS. With an HIV prevalence
rate as high as 20.1 percent, 180,000 new infections each year, and 185,000 deaths
each year from AIDS, Zimbabwe is at the epicenter of the HIV/ AIDS pandemic. It is
reported that there are 1.63 million HIV-infected adults, 165,000 HIV-infected children,
and 1.3 million OVCs in Zimbabwe. Life expectancy dropped from 61 years in 1990 to
34 years today, a 44 percent decline in less than two decades. Gender inequality,
widespread practices of multiple and concurrent sexual relationships, and cross-
generational sex fuel Zimbabwe’s epidemic, particularly among youth. Social norms,
including stigma associated with HIV/AIDS, excessive alcohol consumption, and a
reluctance to talk about HIV status or sexual relations also create barriers to behavior
change.

Exacerbating the current HIV/AIDS pandemic is Zimbabwe’s political and economic
climate. Zimbabwe continues to suffer a severe socioeconomic and political crisis,
including unprecedented rates of inflation and severe “brain drain” of Zimbabwe’s health
care professionals. Elements of a previously well-maintained health care infrastructure
are crumbling. Zimbabwe’s HIV/AIDS crisis is further exacerbated by chronic food
insecurity. Food insecurity is a contributing factor to sub-optimal nutrition, which
increases the vulnerability of individuals with compromised immune systems to life-
threatening opportunistic infections, such as tuberculosis.
1
 The Global Fund is a public-private partnership that raises money to fight AIDS, tuberculosis
and malaria.


                                                                                                 3
To add to an already volatile situation, the country’s shortage in foreign exchange, triple-
digit inflation, and rapidly fluctuating exchange rate have created a recent critical
shortage of anti-retroviral drugs (ARVs). Approximately 17,000 people are currently
receiving ARV treatment provided through either the public or private sector, and a
majority of those people have been receiving locally manufactured ARVs. More
alarming, local manufacture has recently shut down because of the inability of the
pharmaceutical company to access sufficient foreign exchange to import the necessary
raw materials. Also because of the national lack of foreign exchange, imported ARVs
are scarce and largely unaffordable. Zimbabwean dollar prices for ARVs at local
pharmacies have more than tripled, making purchase unsustainable for a significant
proportion of private sector patients. In fact, the exchange rate of the U.S. dollar to the
Zimbabwe dollar more than doubled during the 3 weeks the audit team was conducting
fieldwork. The current economic environment thus makes stable private sector access
to ARVs increasingly untenable, placing pressures on the Government of Zimbabwe
(GOZ) to either rapidly absorb private sector patients or face a looming threat of ARV
resistance that could affect the entire public health profile. Additionally, with the
declining value of the Zimbabwean dollar, the GOZ health budget alone is no longer
sufficient to maintain those clients currently under treatment in the public sector.

In light of these seemingly insurmountable challenges, Zimbabwe’s medical training
programs continue to prepare cadres of Zimbabwean health professionals. It cannot
keep abreast of the demand, however, particularly for medical doctors. The medical,
nursing and laboratory programs, in particular, lose new graduates quickly to private
sector, regional and international positions. As a result, most facilities have a greater
than 50 percent vacancy rate for existing nursing and doctor posts. Shortages of trained
personnel and limited laboratory capacity further constrain delivery of quality treatment.

Despite notable efforts to continue training for health care workers and a fairly well-
established national culture and infrastructure for human capacity development, critical
human resource needs persist. The continued exodus of skilled, trained people and
excessive movement between organizations are driven by the economic crisis and short-
term donor funding commitments. Other barriers--such as lack of performance-based
incentives, labor laws that discourage employers from offering longer-term employment,
weak management practices, and poor-quality working environments--are also
contributing factors.

AUDIT OBJECTIVE
This audit was conducted as part of a worldwide audit led by the Office of Inspector
General’s Performance Audit Division of USAID’s implementation of the President’s
Emergency Plan for AIDS Relief (the Emergency Plan). The Regional Inspector
General/Dakar conducted this audit to answer the following audit objective:

•	 Did USAID/Zimbabwe’s Emergency Plan prevention, care and treatment activities
   achieve expected planned results in its grants, cooperative agreements and
   contracts?

Appendix I contains a discussion of the scope and methodology of the audit.




                                                                                          4
AUDIT FINDINGS

USAID/Zimbabwe achieved 28 of 48 planned outputs (about 60 percent) associated with
its Emergency Plan prevention, care, and treatment activities contained in its grants,
cooperative agreements, and contracts2. Some outputs were achieved at levels lower-
than-expected due to delays in getting activities started up in the first year of funding and
because of the political and economic situation in Zimbabwe. The level of overall
achievement is below the 90 percent threshold described in appendix I, but the results
that were achieved are noteworthy and have had an impact, particularly given the
challenging operating environment in Zimbabwe. However, some internal weaknesses
related to the Mission’s oversight of partners’ performance and data verification were
found, which, if addressed, would lead to improvements in the management of the
program.

During fiscal year (FY) 2006,3 USAID/Zimbabwe worked with four partners to implement
HIV/AIDS care, prevention and treatment activities and the partners reported that many
of these activities were achieved. For example, one of USAID/Zimbabwe’s partners
involved in treatment activities exceeded its target of providing 500 patients with
antiretroviral therapy by providing treatment to 606 patients. Another partner involved in
prevention activities reported training 777 health care workers in Prevention of Mother-
to-Child Transmission (PMTCT), exceeding the annual target of 497. A third partner
involved in care activities reported providing care and support to nearly 40,000 orphans
and vulnerable children (OVCs) which exceeded the planned result by almost 10,000. In
addition, the fourth partner’s goal of providing 150,000 individuals with counseling and
testing services was also exceeded by more than 50,000 individuals.

Achieving or exceeding many of these planned results is especially remarkable when
viewed within the context of an unusually challenging operating environment, as
discussed in the Background section. For example, one factor that made working in
Zimbabwe particularly difficult for the Mission during FY 2006 was hyperinflation, which
eroded purchasing power daily. As a result, budgeting and managing expenses for
activities in local currency was nearly impossible. Similarly, hyperinflation also caused
USAID’s partners to lose professional staff at an alarming rate. Because Zimbabwean
law required non-governmental organizations to pay salaries in local currency, many
staff found that they were unable to support themselves because of the ever rising cost
of necessities. According to the partners, in many cases, staff who had the means opted
to leave the country.

Despite these and other conditions that steadily worsened throughout the year, the
Mission’s HIV/AIDS team managed to achieve some impressive higher-level results in
addition to nearly 60 percent of their planned outputs. These higher level results
included the successful leveraging of funding, the high sales and low stock-out rate of
condoms and the development of an assessment tool to determine the skill capacity at
clinics that was ultimately adopted by the Ministry of Health.

2
  See appendix III on page 19 for detailed information on the planned and actual results for the 48
outputs.
3
  The scope of this audit covers FY 2005 funds, which were used for activities that were
implemented during FY 2006.


                                                                                                 5
Zimbabwe has one of the highest HIV/AIDS prevalence rates in the world, but it was not
chosen as one of the 15 focus countries for the Emergency Plan, even though all of its
surrounding neighbors are focus countries. As focus countries, Zimbabwe’s neighbors
receive an estimated 10 times as much assistance from the United States for HIV/AIDS
as Zimbabwe. The Mission recognizes that this geographic situation makes Zimbabwe
“the hole in the donut”, putting its neighbors’ Emergency Plan efforts at risk. To achieve
a higher impact than its FY 2005 funding level would permit, the HIV/AIDS team
collaborated with other donors to leverage substantial resources for their Emergency
Plan activities. For example, USAID leveraged United Kingdom (UK) Department for
International Development funds to augment the outreach of several care and prevention
projects that were initially developed and implemented by USAID. In FY 2006, the UK
contributed 80 percent of the overall funding for these projects, giving
USAID/Zimbabwe’s Emergency Plan activities a significant boost in capacity.

As the key condom distributor in Zimbabwe, the Mission is proud of the fact that its
condom stock-out rate in public health facilities was less than 5 percent for FY 2006. In
addition, USAID/Zimbabwe’s social marketing program has been successful with high
condom sales per capita. This was achieved in part through the innovative use of
geographic information system (GIS) mapping. To strategically position distribution
outlets, GIS mapping identified the areas where demand for condoms was the highest.
In addition, USAID/Zimbabwe used GIS mapping to determine which areas of the
country had the highest prevalence rates. In doing so, those communities could be
targeted with outreach activities to promote awareness of the importance of using
condoms. Greatly exceeding their own expectations of reaching 10,000 people, the
Mission estimates that more than 93,000 individuals were reached through traveling
community-based “road shows” that promoted HIV/AIDS prevention and other behavior
change beyond abstinence or being faithful.

                                                               In conjunction with widely
                                                               distributing condoms to the
                                                               highest-risk   areas,    USAID/
                                                               Zimbabwe’s road shows have
                                                               proven to be an effective way to
                                                               convey important prevention
                                                               information by engaging the
                                                               community interactively to dispel
                                                               misinformation about HIV/AIDS.
                                                               In this photo, the facilitator is
                                                               demonstrating the strength and
                                                               capacity of a condom to counter
                                                               the misconception that condoms
                                                               break too easily and therefore
                                                               are not worth using. Photo taken
                                                               by a RIG/Dakar auditor in
                                                               Chendambuya, Zimbabwe in
                                                               May 2007.

Another impressive accomplishment is the site assessment tool developed by
USAID/Zimbabwe. The Mission developed the tool to assess the capacity and
capabilities of Zimbabwe’s health facilities to determine which could provide antiretroviral
therapy. The Government of Zimbabwe now assesses facilities using the same tool.
Because of the critical loss of professional staff in Zimbabwe, this tool is essential for



                                                                                              6
determining which sites have the capacity to provide treatment effectively and
responsibly.

Despite these positive achievements, approximately 40 percent of USAID/Zimbabwe’s
planned outputs for FY 2006 were not achieved. Although we did not verify reasons for
lower-than-expected achievement for each of these outputs, delays related to the start
up of new activities in the first year as well as circumstances beyond the Mission’s
control affected the Mission’s and partners’ ability to achieve some of the planned
results. For example, one partner said that a drug therapy sponsored by the U.S.
government was slow in being provided at the clinics due to lack of information from the
Ministry of Health on how to order the drug. However, this has been addressed and the
provision of the drugs to patients has increased. Concerns from the clinics regarding the
long-term availability of drugs from the U.S.-government supply chain also impacted the
achievement of another output. According to the partner, the clinics have been assured
that the treatments can be sustained.

Partners also discussed the impact of the political and economic situation in Zimbabwe
on the achievement of their program goals and outputs. For example, one partner was
not able to reach its target of providing almost 100,000 women with PMTCT services
because of political events that displaced many people in the capital city from their
homes. This displacement meant that fewer women than expected were able to access
pretest counseling, which is the point-of-entry or prerequisite for four other PMTCT
services. Therefore, when the partner did not achieve the planned result associated with
the pretest counseling, achievement of the other four related results was not possible. In
this particular case, the partner achieved only 44 percent of its planned outputs, which
was the domino effect from not achieving that first planned result. The effect of the
country’s hyperinflation was also mentioned by the partners. The exchange rate for
project funds into local currency was lower than expected, thus increasing project costs
which eroded purchasing power. Staff shortages and high attrition were also cited by
partners as impacting the implementation of their programs, with more time and funds
spent on recruiting and re-training of staff. One partner viewed this as a major threat for
the sustainability of current and future operations.

Because of the unusually challenging operating environment, we are not making any
recommendation regarding the approximately 40 percent of planned outputs that had
lower-than-expected achievement. However, some internal control weaknesses were
noted at both the Mission and partner level that, if addressed, will improve the Mission’s
management of the partners’ performance.

Performance Management
Needs to Be Strengthened

Summary: According to USAID’s Automated Directives System (ADS), missions are
responsible for establishing performance management systems to measure the progress
of activities from the lowest level—the output level—up to the higher level results. While
USAID/Zimbabwe conducted two performance reviews during FY 2006, the Mission did
not review lower-level results. When we conducted the review of FY 2006 planned
outputs, we found that the Mission failed to perform some basic monitoring activities for
three of its four partners. Mission management told us that these monitoring problems
occurred because the Mission was short-staffed. If the Mission were to drill down to the


                                                                                         7
output level during portfolio reviews, internal control weaknesses such as those
mentioned above could be discovered and corrected with a minimum of extra effort.
This would allow the Mission to ensure that outputs identified in its grants, cooperative
agreements and contracts are effectively monitored, providing the basis for sound
performance management of higher-level results.

According to USAID’s ADS, missions are responsible for establishing performance
management systems to measure progress toward intended objectives. The ADS
defines performance management as “the systematic process of monitoring the results
of activities; collecting and analyzing performance information to track progress toward
planned results; and using performance information to influence program decisions.”
Toward these ends, the ADS requires each mission to conduct at least one portfolio
review each year. This systematic analysis of the progress of a strategic objective
determines whether USAID-supported activities are leading to the results outlined in the
approved results framework. The ADS suggests that during the portfolio review, the
Mission review outputs—defined as “a tangible, immediate, and intended product or
consequence of an activity within USAID’s control”—and specifically address two
questions: (1) Are the planned outputs being completed on schedule? (2) Are the
planned outputs leading to the achievement of the desired results as anticipated?

During FY 2006, the Mission was responsible for monitoring 48 outputs identified in its
cooperative agreements with four implementing partners. Examples of outputs included
individuals receiving palliative care, number of orphaned or vulnerable children receiving
assistance and number of health care workers trained in voluntary testing and
counseling. Although USAID/Zimbabwe conducted two portfolio reviews during FY
2006, the Mission did not review the outputs included in its grants, cooperative
agreements and contracts.          These reviews address the fundamental questions
pertaining to outputs that, like building blocks, are recommended for the Mission to
assess overall progress towards accomplishing desired results.

As part of this audit, we conducted a review of outputs that was similar to that prescribed
in the ADS for portfolio reviews, intending to compare the planned outputs with the year
end results reported by each partner. However, for three out of four partners, the audit
team was unable to perform this simple analysis using documents readily available at
the Mission.

For the first partner, the Mission provided us with a work plan that listed 15 planned
outputs. However, the partner’s year-end report included results for only one of the
original outputs. When asked why the other 14 outputs were not tracked at year-end,
the Mission explained that the focus had shifted during the year to monitoring a single
Emergency Plan indicator that was composed of the original 15 indicators. According to
its cooperative agreement with the partner, however, the Mission was still required to
monitor the original indicators.

In the case of the second partner, USAID/Zimbabwe provided 20 percent of the funding
for the partner’s activities and the United Kingdom provided the other 80 percent. The
work plan listed planned outputs for all of the activities funded by both donors and did
not differentiate or allocate the planned results between the sources of funding.
However, the year-end reported results attributed only 20 percent of the achieved
outputs to USAID in an effort to assign results proportionate to donor funding levels.
Because the work plan had not assigned 20 percent of the planned achievement to


                                                                                         8
USAID, and because the attribution methodology was inconsistently applied, it appeared
that USAID had achieved only 20 percent of its planned outputs. When the audit team
raised this issue with the partner and the Mission, management could not reach
consensus on what the attribution methodology should have been for FY 2006 planned
or achieved results or what methodology should be used in planning for and reporting on
FY 2007 activities.

In the third case, the Mission did not ensure that a work plan developed for the partner
included planned output targets. The partner said that targets were rolled out continually
all year, in a piecemeal fashion, and were not documented in a single performance
management document as the ADS requires. For example, the exact number of people
to receive antiretroviral therapy was not determined until after the work plan was
developed. The Mission explained that it and the partner were so familiar with the
targets because of frequent meetings on the subject that the task of documenting these
targets in an amendment to the work plan was never addressed. It appeared that both
the Mission and the partner staff had a good understanding and recall of the targets for
FY 2006, but both agreed that this information would be lost if the partner or Mission
staff were to leave.

Mission management said that these monitoring problems occurred because the Mission
was short-staffed. During FY 2006, the Mission attempted to hire a third Cognizant
Technical Officer to share and alleviate the work load. Management explained that the
position was advertised locally and internationally three times, but the Mission was not
able to attract qualified candidates who were interested in the position. Mission
management speculated the lack of interest was due to the current political and
economic conditions in Zimbabwe. In addition, the Mission’s monitoring and evaluation
specialist left during the year.

Although the Mission appears to face a staffing shortage, if it were to drill down to the
output level during the year-end portfolio review process, internal control weaknesses
such as those mentioned above could be discovered and corrected with a minimum of
extra effort. This would allow the Mission to ensure that outputs identified in its
cooperative agreements are effectively monitored, providing the basis for sound
performance management of higher level results.

Based on this conclusion, we make the following recommendation.

   Recommendation No. 1:        We recommend that USAID/Zimbabwe revise its
   Mission Order on semi-annual portfolio reviews to include reviewing output level
   data to ensure that outputs in grants, cooperative agreements and contracts
   continue to be monitored in addition to higher level results.

The Mission and Its Partners
Need to Verify Data

Summary: According to Agency guidance, measuring performance effectively means
that missions must ensure that quality data are collected and available to inform
management decisions. We performed spot-checks of the data reported to USAID by
the Mission’s four HIV/AIDS implementing partners to verify the accuracy of information
reported to USAID and to confirm that each partner had an effective data collection


                                                                                        9
system. For three out of four partners, there were problems with both the data collection
system and the accuracy of data reported to USAID. Mission officials explained that
hiring, training and retaining monitoring and evaluation specialists in the current
operating environment is difficult for the partners, which impacts the quality of data
collected and reported. Although Mission staff was proactively involved with the partners
and program activities, they had not performed data verification at the activity sites
because of constraints on their time and resources. However, sound management
decisions require accurate, current, and reliable information, and the benefits of this
results-oriented approach depend substantially on the quality of the performance
information available.

According to Agency guidance, measuring performance effectively means that missions
must ensure that quality data are collected and available to inform management
decisions. As part of the audit, we performed spot checks of the data reported to USAID
by the Mission’s four HIV/AIDS implementing partners to verify the accuracy of
information and to confirm that each partner had an effective data collection system. For
three out of four partners, problems were found with both the data collection system and
the accuracy of data reported to USAID, affecting 6 of the 12 outputs checked.

For example, we visited a hospital supported by one of the partners where antiretroviral
therapy (ART) treatment was provided in FY 2006. Each month the hospital reports to
the partner on the patients who received various regimes of USG-provided ART. These
reports are the basis data compiled and provided by the partner to USAID. We
judgmentally selected one month and attempted to trace the number of patients shown
in the hospital’s report to the partner with a log that serves as the data source for the
monthly report. After two failed attempts, and with the assistance of the partner staff, the
hospital staff found a monthly report and log for the same month. However, the figures
shown in the log did not reconcile with those in the monthly report. The report showed
27 and 120 patients receiving treatment for two different ART regimes but the log
showed 89 and 83 respectively. The hospital staff member was unable to explain the
methodology for the collection and compilation of the monthly data, however the partner
explained that this staff member was not hired for this task but was filling in after the
departure of the previous monitoring and evaluation specialist. The partner also
mentioned that the hospital is generally short-staffed and the current staff is busy with
many competing responsibilities, all of which affect the data collection and reporting
system.

In the second case, we visited another partner’s rural community orphans and
vulnerable children (OVC) project. The partner had reported at year-end that it had
provided 1,079 OVCs with education assistance and psychosocial counseling in FY
2006. When we asked to see the database, the partner staff was unable to show how
they arrived at the 1,079 OVCs reported for FY 2006. The partner said that its
monitoring and evaluation specialist had recently quit and the new monitoring and
evaluation specialist had not yet been trained. The partner further explained that the
database was not yet complete and a new reporting system for USAID was being
developed because the current staff was not familiar with the old system.

In the third case, we visited a USAID-funded center that provides palliative care services
to individuals who recently tested positive for HIV/AIDS. We judgmentally selected one
month and asked to see the partner’s records for the number of clients who received



                                                                                         10
services during that month. Although the number reported to USAID was 354, the
partner’s records showed only 244. This partner had difficulty explaining its data
reporting system because the monitoring and evaluation specialist had recently been let
go for poor performance.

Mission officials explained that with the current economically unstable operating
environment, partners find it difficult to hire, train and retain monitoring and evaluation
specialists. This has proven to be an impediment to ensuring data quality. Additionally,
the increasingly severe humanitarian crisis in Zimbabwe often requires partner staff to
direct their attention to other aspects of the project. As a result, the individuals who are
responsible for data collection and reporting at the sub-partner level are often concerned
with more urgent program implementation activities, sometimes at the expense of
effective management of data quality for reporting purposes. The Mission said that
unfortunately, it does not expect this situation to improve in the near future.

In terms of the Mission’s efforts, the activity manager and CTO were proactive in
monitoring program activities. Both said they had ongoing and frequent contact with the
partners and made regular visits to the partners’ offices. They also mentioned that they
regularly reviewed the performance data submitted by the partners as part of their
progress reports. However, both acknowledged that they had performed few site visits
to partners’ sites because of constraints on their time and have not performed
verification of data at the program sites. As mentioned previously, the Mission
attempted to hire an additional CTO to alleviate the workload but has been unable to fill
the position. We also found the Mission had not performed a data quality assessment
(DQA) on HIV/AIDS activity indicators as required by the ADS, and the Mission Order on
monitoring and evaluation was out of date, with no revisions or updates since 1989.

We understand the severity of the economic and humanitarian crises in Zimbabwe, but
reliable reporting remains key to USAID’s results-oriented management approach.
Agency guidance states that “sound management decisions require accurate, current,
and reliable information, and the benefits of this results-oriented approach depend
substantially on the quality of the performance information available.” In addition,
USAID’s Center of Development Information and Evaluation Performance Monitoring
and Evaluation Tips (TIPS Number 12), which summarizes the key references on
performance measurement quality found in the ADS, indicates that while some errors in
collecting data are to be expected, discrepancies can easily be avoided by cross
checking the data to the source document. Ensuring that the quality of data reported to
the Mission by partners is reliable is an essential part of each mission’s responsibility.
The current operating environment in Zimbabwe heightens the need for
USAID/Zimbabwe to verify the data reported by partners perhaps even more frequently
than other missions because of high partner staff turnover.

We are making no recommendations related to the lack of a DQA or the out-of-date
Mission order because the Mission had begun to address both of these weaknesses
before we began our fieldwork. However, to help the Mission improve the accuracy and
reliability of program data we make the following recommendation.

   Recommendation No. 2:          We recommend that USAID/Zimbabwe develop
   procedures that define the roles and responsibilities of Mission and partner staff
   in assuring the quality of Emergency Plan activity data. At a minimum, this would
   include procedures related to verifying reported data with source documentation,


                                                                                         11
documenting key assumptions and calculations, and maintaining documentation
to support reported results.




                                                                              12
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Zimbabwe agreed with the findings and the two recommendations in the draft
audit report4. Final action has been taken on the recommendations and no further action
is required of the Mission.

Recommendation No. 1 recommends that USAID/Zimbabwe revise its Mission Order on
semi-annual portfolio reviews to include reviewing output level data in addition to higher
level results. The Mission agreed and revised its Mission Order 203 in September 2007.
The order now states that the fall session of the portfolio review will focus on ensuring
that projects are progressing as planned and that targets and outputs are being
achieved. In addition to this final action, the Mission is also requiring all partners to
develop data quality plans by the end of fiscal year (FY) 2008.

Recommendation No. 2 recommends that USAID/Zimbabwe develop procedures that
define the roles and responsibilities of Mission and partner staff in assuring the quality of
Emergency Plan activity data. The Mission agreed and addressed this in its September
2007 revision of Mission Order 203. The order now directs partners to conduct quarterly
spot checks of data and to also include verification of sub-partner data as part of those
quarterly spot checks. The order also requires the Cognizant Technical Officers (CTOs)
to perform data verification during site visits. The Mission also hired a Strategic
Information Specialist in August 2007 who has responsibility for the monitoring and
evaluation of Emergency Plan indicators. In addition to this final action, the Mission also
has additional efforts underway which will be concluded by the end of FY 2008. These
include developing a schedule of site visits, conducting a workshop for partners to
highlight data quality issues, developing a data verification tool to be used by CTOs
during site visits, and creating additional procedures related to Mission and partner
responsibilities for data quality.

Management’s comments are included in their entirety (without attachments) in
Appendix II.




4
 USAID/Zimbabwe’s response refers to our preliminary report number 7-613-07-004-P.
However, because this report is being issued in October 2007, it has been assigned a new
number reflecting issuance in FY2008 (7-613-08-001-P).


                                                                                           13
(This page intentionally left blank)




                                       14
                                                                               APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Office of Inspector General in Dakar conducted this audit in accordance
with generally accepted government auditing standards. The audit was conducted as
part of a worldwide audit led by the Office of Inspector General’s Performance Audit
Division of USAID’s implementation of the President’s Emergency Plan for AIDS Relief
(the Emergency Plan). The audit objective was to determine if USAID/Zimbabwe
Emergency Plan prevention, care and treatment activities achieved expected and
planned outputs in its grants, cooperative agreements, and contracts for fiscal year (FY)
2005 funding. Fieldwork was conducted from May 7, 2007, through May 24, 2007, in
Harare, and in the districts of Chiweshe, Chitungwiza, and Chendambuya.

In planning and performing the audit, we assessed the effectiveness of
USAID/Zimbabwe’s internal controls that could materially affect the audit objective. We
identified internal controls such as USAID/Zimbabwe’s process for monitoring its
partners’ progress and reporting, as well as USAID/Zimbabwe partners’ process for
validating and verifying data reported to the Mission.

For the period audited, three partners and a consortium of partners were engaged in
HIV/AIDS prevention, care and treatment activities. We selected the activities of all three
partners’ and the consortium for review. These three partners and the consortium
represented 100 percent of the total FY 2005 funding for prevention, care and treatment
activities. We audited prevention, care and treatment activities completed no later than
September 30, 2006 which were implemented with FY 2005 funding.

METHODOLOGY
To answer the audit objective, we met with USAID/Zimbabwe’s staff. To gain an
understanding of the subject matter, we reviewed prior Emergency Plan audits including
a non-focus country audit. We reviewed the Mission Strategic Plan, Mission Order,
cooperative agreements, work plans, result reports, and the Mission’s annual self–
assessment of management controls as required by the Federal Managers’ Financial
Integrity Act. We interviewed partners and reviewed their work plans, result reports.
Two to four outputs on the result reports for each partner and the consortium were
selected and we compared those output results to logs and other source documents at
the partner’s location. We then traced the two to four outputs as documented at the
partners’ location to sign-in logs and original documents at the local sites such as clinics,
hospitals and counseling centers.

We compared each target on the partners’ and the consortium’s work plan against the
results reported to determine the percentage of achievement for each target. We then
analyzed the number of targets achieved per partner to determine the partner’s level of
achievement.

   •	 If a partner achieved at least 90 percent of a planned output, the partner was
      deemed to have achieved that output.



                                                                                          15
                                                                             APPENDIX I 




   •	 If a partner achieved less than 90 percent of a planned output, the partner was
      deemed to have not achieved the output.

To determine if USAID/Zimbabwe’s planned outputs were achieved, we aggregated the
targets for all three partners and the consortium and analyzed the percentage of the total
targets using the audit threshold output criteria. The audit materiality threshold criteria
were as follows:

       1) If at least 90 percent of the outputs were achieved, the answer to the audit
       objective would be positive.

       2) If at least 80 percent but less than 90 percent of the outputs were achieved,
       the answer to the audit objective would be qualified.

       3) If less than 80 percent of the outputs were achieved, the answer to the audit
       objective would be negative.

We interviewed mission officials and in-country partners and reviewed results reports to
determine progress towards planned outputs. In addition, we performed several site
visits in Harare and in the districts of Chiweshe, Chitungwiza, and Chendambuya to
observe operations meet with local implementing staff.             We also reviewed
documentation at clinics and other project implementation sites where we verified
selected indicators to the prime partners' reports. Finally, we inquired about the
challenges and impediments to implementing the Emergency Plan in Zimbabwe.




                                                                                        16
                                                                                            APPENDIX II 




MANAGEMENT COMMENTS



                                           MEMORANDUM

Date:           October 9, 2007

From:           USAID/Zimbabwe Director, Karen Freeman /s/

To:             Regional Inspector General (RIG)/Dakar, Nancy Toolan

Subject:        USAID/Zimbabwe Comments on Draft Audit Report No. 7-613-07-004-P


USAID/Zimbabwe is in agreement with the findings of Audit Report No. 7-613-07-004-P and wishes to
thank USAID RIG/Dakar for all its support and guidance in improving our monitoring capabilities.

Furthermore, USAID/Zimbabwe is in agreement with the recommendations offered in the report. Our
plans for each recommendation with corrective actions are as follows:

Audit recommendation No. 1: We recommend that USAID/Zimbabwe revise its Mission Order on semi
annual portfolio reviews to include reviewing output level data to ensure that outputs in grants,
cooperative agreements and contracts continue to be monitored in addition to higher level results.

Corrective Actions

      a.     USAID/Zimbabwe has revised Mission Order #203 (see attached) as of September 2007. It
             now states that portfolio reviews will take place semi-annually; the fall review will focus on
             performance issues to ensure that projects are progressing as planned and that targets and
             outputs are being achieved – Complete!

      b.     USAID/Zimbabwe is aligning all HIV/AIDS performance monitoring requirements for partner
             grants, cooperative agreements and contracts with the FY2007 PEPFAR indicators and will
             include a requirement that all partners develop data quality plans; Target completion date:
             end FY2008.

Audit recommendation No. 2: We recommend that USAID/Zimbabwe develop procedures that define
the roles and responsibilities of Mission and partner staff in assuring the quality of data. At a minimum,
this would include procedures related to verifying reported data with source documentation, documenting
key assumptions and calculations, and maintaining documentation to support reported results.

Corrective Actions

      a. 	   USAID has revised Mission Order #203 as of September 2007. It now directs implementing
             partners to “conduct quarterly spot checks of data to ensure that accurate collection and
             reporting processes exist. This directive includes the need for partners to verify their sub-
             partners' data as part of the quarterly spot checks. Acquisition and assistance award
             mechanisms should explicitly include this directive. Furthermore, the Mission Order requires
             CTOs to perform data verification spot checks during site visits.”



                                                                                                        17
                                                                                       APPENDIX II



b. 	   In August 2007, USAID/Zimbabwe hired a Strategic Information Specialist who has
       monitoring and evaluation responsibility for PEPFAR indicators.

c. 	   A site visit schedule is being prepared for the Strategic Information Specialist for the last 3
       quarters of FY2008.

d. 	   A workshop will be held with our partners’ monitoring and evaluation staff to highlight the
       importance of data verification, documenting assumptions and explaining results; Target
       completion date: mid FY2008.

e. 	   USAID/Zimbabwe’s Program Office is developing a data verification tool for use during site
       visits by CTOs; Target completion date: mid FY2008.

f. 	   Procedures are being developed that define the roles and responsibilities of Mission and
       partner staff to ensure that quality PEPFAR activity data is obtained. These procedures will
       include more frequent and documented data verification spot checks of field sites; Target
       completion date: end FY2008.




                                                                                                   18
                                                                                      APPENDIX III



Planned and Actual Results for
Fiscal Year 2006
Outputs Achieved at 90 Percent Level or Higher
                       Description                             Target       Actual     Percent    Output
                                                                                      Achieved    Tested
 1    Number of schools participating in resource                       2    149        7,450      No
      exchange activities
 2    Number of individuals reached through community           10,000      93,588      936        Yes
      outreach promoting behavior change beyond
      abstinence or being faithful
 3    Number of individuals trained to promote HIV/AIDS            100       763        763          No
      prevention through behavior change beyond
      abstinence being faithful
 4    Number of sound practices identified to support                   1     3         300          No
      OVCs
 5    Number of providers trained in opportunistic                 100       170        170          No
      infection/Antiretroviral therapy management
 6    Number of individuals provided with HIV related            8,500      13,941      164        Yes
      palliative care
 7    Number of health care workers trained for PMTCT              497        777       156        Yes
 8    Number of Basic Package PMTCT sites                          118        180       153        No
 9    Number of psycho social supportive interventions              10         15       150        No
 10   Number of site readiness and follow-up assessments            30         42       140        No
 11   Number of children receiving education assistance         21,000      28,181      134        Yes
 12   Number of individuals who received counseling and        150,000      201,180     134        Yes
      testing for HIV and received their results
 13   Number of targeted condom service outlets                 10,000      13,373      134        No
 14   Number of children receiving care and support OVCs        30,000      39,913      133        Yes
 15   Number of children enrolled full year in school           22,500      28,181      125        No
 16   Number of supportive package PMTCT sites                      54        66        122        Yes
 17   Number of patients on first- line alternative ARV drug       500       606        121        Yes
      sponsored by US Government
 18   Number of individuals trained to promote HIV/AIDS            200       205        103        Yes
      prevention through abstinence or being faithful
 19   Number of people trained in OVC activities                 4,000       4,024      101          No
 20   Percent of service delivery points having condoms in          95        95        100          No
      stock at point of delivery
 21   Number of provincial site assessment teams trained             9        9         100          No
 22   Number of organizations supporting community                  11        11        100          No
      responses to OVCs
 23   Number of community initiatives supporting OVCs              121       121        100          No
 24   Number of daily meals served to OVCs                           3        3         100          No
 25   Number of education assistance interventions                   3        3         100          No
      implemented
 26   Number of women receiving results                         46,058      45,353       98        Yes
 27   Number of individuals trained in counseling and              150       147         98        No
      testing according to national and international
      standards
 28   Number of service outlets providing counseling and            21        20         95          No
      testing according to national and international
      standards
 Summary: 58 percent of outputs achieved at 90 percent level or higher (28 of 48 outputs)




                                                                                                 19 

                                                                                    APPENDIX III



Outputs Achieved at Less Than 90 Percent Level
                       Description                          Target    Actual   Percent     Output
                                                                               Achieved    Tested
 1    Number of women HIV tested                             55,664   47,448      85            No
 2    Number of service outlets providing HIV related             6        5      83            No
      palliative care
 3    Number of women pre-test counseled                     79,408   66,139      83            No
 4    Number of infants receiving ARV prophylaxis             5,718    4,558      80            No
 5    Number of women accessing PMTCT services               98,076   69,485      71            No
 6    Number of women receiving ARV prophylaxis               8,744    6,035      69            Yes
 7    Number of first antenatal care visits                  98,076   66,596      68            No
 8    Number of individuals trained to provide HIV              120       81      68            No
      palliative care
 9    Number children reached for psycho social support      42,000   25,369      60            No
 10   Number of patients on second-line alternative ARV          49       25      51            Yes
      drug sponsored by U.S. Government
 11   Number of patients on U.S. Government-sponsored         1,500      500      33            Yes
      Efavirenz
 12   Number people living with HIV/AIDS receiving ART      150,000   46,000      31            No
 13   Number of individuals trained in HIV-related               44       10      23            No
      institutional capacity building
 14   Number of children benefiting of food security         14,000    3,025      22            No
 15   Number of OVC enrolled for support services           150,000   28,181      19            No
 16   Number of children benefiting from education          150,000   28,181      19            No
      assistance
 17   Number of local organizations provided with                22        4      18            No
      technical assistance for HIV-related institutional
      capacity building
 18   Number of individuals reached with community           14,000      826       6            No
      outreach HIV/AIDS prevention through abstinence
 19   Number of individuals reached with community           15,000      826       6            No
      outreach HIV/AIDS prevention through abstinence or
      being faithful
 20   Number of individuals trained in HIV related stigma        20        0       0            No
      and discrimination reduction
 Summary: 42 percent of outputs achieved at less than 90 percent level (20 of 48 outputs)

Note: OVC: Orphans and Vulnerable Children; ARV: Antiretroviral; ART: Antiretroviral Therapy; PMTCT:
Prevention of Mother-to-Child Transmission; NGO: Non-Governmental Organization; CBO: Church Based
Organization




                                                                                                 20 

                                                                         APPENDIX IV



Funding Level
          Funding by Accounts                                  FY 2005 Funding Amounts
 Child Health and Survival                                             $9,900,000
 Global HIV/AIDS Initiative                                             1,600,000
 Total FY 2005 Funding                                                $11,500,000

          FY 2005 Funding Received by Partners for FY 2006 Activities
 Prime Partners                   Activity period      Funding        Percentage of
                                                                      total funding
 John Snow Inc.                   October 2005 to      $1,900,000     17 percent
                                  September 2006
 Catholic Relief Services         October 2005 to      1,600,000      14 percent
                                  September 2006
 Partnership Project              October 2005 to      3,350,000      29 percent
                                  September 2006
 Elizabeth Glazier Pediatric Aids October 2005 to      2,000,000      17 percent
 Foundation                       September 2006
 Other and Admin Expenses         October 2005 to      2,650,000      23 percent
                                  September 2006
 Total                                                 $11,500,000    100 percent

Source: Mission data and Office of the Global AIDS Coordinator funding report (un
audited).




                                                                                    21 

U.S. Agency for International Development
      Office of Inspector General
      1300 Pennsylvania Ave, NW 

        Washington, DC 20523 

          Tel: (202) 712-1150 

          Fax: (202) 216-3047 

          www.usaid.gov/oig
